No. 20-1525

IN THE
SUPREME COURT OF THE UNITED STATES

LEWIS ARCHER
Petitioner
vs.

AMERICA’S FIRST FEDERAL CREDIT UNION
Respondent

PROOF OF SERVICE
I. Lewis Archer, do swear or declare that on this date,
July^ 2021. as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR REHEARING on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each
of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses and telephone numbers of those served are as follows^
Sanford Graham Hooper (Counsel of Record)
Terrence W. McCarthy (Counsel for America’s First Federal Credit Union)
LIGHTFOOT, FRANKLIN & WHITE, L.L.C.
The Clark Building
400 20th Street North
Birmingham, Alabama 35203
(205) 581-0700
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

n

g, ao:M

, 2021.

1

,v

fc. !

(Signatun
bUA»bf|y .

(•: —

JULIE ROMANOS
:*i My Commission Expires

VS-/ November24.2024

RECEIVED
JUL 1 3 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

